                                                                    NATIONAL SCIENCE FOUNDATION
                                                                        4201 WILSON BOULEVARD
                                                                       ARLINGTON, VIRGINIA 22230
                                                                                                       .   ,


            ~                   .,.
                               .$&
                                       .?,
                                          ; ,.#;.,-
                                         .<$i..
                                       +>~.  ,,


                                             :.w'*.<,e
            I                          .~,,"
                                                     -qt-
                               *   5                1    ..dY

                   4T!&
                      <.,f:-                           ;

                                       . :$, ..-
                                                   #.,&
                       ,>w
                                   &~"$.*.~,.,,?'~
                                      .$,,,
                                          J:?
                                       pL,&



                    OFFICE OF
                INSPECTOR GENERAL

        I




    1             MEMORANDUM
                  Date:
    I

    I
    !
                  To:

    ,             From:

                  Re:
1


I
!                 Allegation (s)

                   The Department of Energy (DOE) Office of Inspector General (OIG) referred a case to
                   our office on August 18, 1997. DOE advised that they had received an allegation that
                 h
                 -te                   PI for an NSF and DOE funded project, was using the grant funds
                   illegally. The complainant was a former employee on the project who had been
                   terminated.

                  Specifically, the complainant alleged that
                                                                                T
                                                                   ad 1) refused to disclose grant financial
                  information to the complainant 2) used grant unds to pay for travel unrelated to the
                  project, 3)paid people with grant funds who did not work on the project, 4)worked only
                  50% of the time she listed in the budget, 5)expended grant funds on questionable costs,
                  and 6)used grant funds f        o       w a company she created with-
                              --
                  another co-PI on this project.
                                                                                                   &




                  Potential Violations:

                                                                -
                  18 U.S.C; § 666 Theft or bribery concemingprogram receiving Federal funds
                                         and I       r        e listed as the PISfor the


Investigative Findings:

We reviewed the account expenditure records and source documentation for this award,
which we obtained through a subpoena. In reviewing the records, we found no evidence
of cost mischarging or questionable expenditures to this project.
                                                                             A   ., . i
                                                                                      ..

We randomly sampled the consultants paid off the award and "e,fified'whqiheior not they
had actually worked on the project. All of them advised that ;hey had ipdetd worked on     .   '




    p~~je-ct;-~Kdhti&received-paymentfor--their-w~~k;- All--ofthe-sowce-document:
for consultant expenditures appeared to be valid and legitima@.:<
                                                               . ..


We found no evidence of unauthorized travel expenditures for this grant. All of the
supporting documentation for travel expenditures appeared to be valid and legitimate.

W e interviewed pdrsonnel a t -          advised that                  outinely worked
well over the 40 hour work week. They also advised that                 keep time cards
    *
for their employees.
A




Based on our findings, this case is closed.
